CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that Brief Amici Curiae
of National Legal Foundation, et al., supporting the Petitioners in No. 19-267, Our Lady of
Guadalupe School v. Agnes Morrissey-Berru, contains, 1,403 words, excluding the parts
of the document that are exempted by Supreme Court Rule 33.1(d).
September 30, 2019
/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001

